                                  Report In Brief
                                   U.S. Department of Commerce Office of Inspector General
                                                           March 30, 2007

Why We Did This Review            National Oceanic and Atmospheric Administration
Then-Senator Mark Dayton
(D-Minnesota) asked us to         Rogers, Minnesota: Complex Weather Conditions, Radar
examine the National Weather      Limitations Delayed NWS Warning of Deadly Tornado (DEN-
Service’s (NWS’) actions in       18534)
connection with a deadly tor-
                                  What We Found
nado that struck Rogers,
Minnesota, on September 16,       The Chanhassen weather forecast office (WFO), NWS Central Region, and Storm
2006, killing a 10-year-old       Prediction Center generally followed policies and have the best available technology. But
girl, injuring six others, and    several factors may have adversely impacted Chanhassen’s handling of the situation:
damaging dozens of struc-         ~ The WFO did not follow policy to the letter. NWS policy requires that severe thun-
tures. We sought to determine     derstorm warnings issued for areas concurrently under a tornado watch must state that tor-
(1) whether NWS policies,         nadoes are also possible. The Chanhassen warning did not contain such a statement.
and procedures for tracking       ~ Dividing staff to monitor conditions left Rogers with reduced coverage. Shortly
severe weather and forewarn-      before the tornado hit, Chanhassen assigned warning responsibility for a region southwest
                                  of Minneapolis/St. Paul to two forecasters because this area appeared most likely to spawn
ing the public are adequate
                                  tornadoes. The remaining forecaster was assigned an area north, which included Rogers.
and were followed, (2)
                                  Dividing staff to focus on more limited areas during volatile weather conditions is normal-
whether the Chanhassen            ly a best practice. But the rapidly developing event that affected Rogers may have war-
weather forecast office, which    ranted coverage by two forecasters.
is responsible for issuing        ~ Storm Prediction Center notice suggested improving conditions. As the tornado
warnings and watches for the      was on the ground in the vicinity of Rogers, the NWS Storm Prediction Center issued a
region, has state-of-the-art      notice stating the risk for tornadoes was diminishing across the area that included Rogers.
severe weather forecasting        While this notification did not say the possibility for tornadoes had ended, it appeared to
and observations technology,      send a message that conflicted with actual conditions.
and (3) if that equipment was     ~ Weather spotter’s report was misinterpreted. At 10:13 p.m., a weather spotter en-
operating properly on             route through Rogers from Albertville, Minnesota, called the Chanhassen WFO to report
September 16.                     storm damage in Rogers. The Chanhassen technician who took the call mistakenly
                                  assumed the spotter was traveling from Rogers to Albertville, and miscalculated the time
Background                        of the observation as occurring 10 minutes before the tornado struck the city. This misin-
Although the area was under       terpretation was a major factor in the controversy surrounding NWS’ performance.
both a tornado watch and          ~ Access to FAA radar data could have aided decision making. NWS weather fore-
severe thunderstorm warning,      cast offices rely on the Next Generation Radar system to monitor atmospheric conditions,
NWS did not issue a tornado       and some augment radar capabilities with FAA’s Doppler radar. This technology was not
                                  available to Chanhassen because of funding priorities.
warning before the tornado hit.
The local weather forecast        What We Recommended
office received no reports of
                                  To enhance its forecasting abilities, NWS should take the following actions:
tornado sightings during the 12
                                  1. Reinforce agency requirements for preparing weather products to ensure they contain
minutes the tornado was on the
                                  all required information, and research ways to automate the inclusion of such information.
ground. But a damage assess-
                                  2. Explore ways to improve coordination between the Storm Prediction Center and
ment performed the following
                                  WFOs so that communiqués clearly distinguish between current and possible conditions.
day determined that an F2 tor-
                                  3. Assess alternative staffing models that allow WFOs to assign at least two forecasters
nado had indeed hit the city.
                                  to individual areas of severe weather when conditions warrant dividing responsibilities.
To view the full report, visit    4. Develop a standard protocol for collecting spotter observations to ensure field staff
http://www.oig.doc.gov/oig/repo   ascertain complete and accurate details.
rts/2007/Rogers%20DEN-            5. Assess the feasibility of connecting Chanhassen and other WFOs to FAA’s Doppler
18354.pdf.                        radar, where available, and deploying all available technology upgrades.
